                       art




  PAYROLL EXPENSES REPORTED BY THE DEFENSE FINANCE
      AND ACCOUNTING SERVICE COLUMBUS CENTER

                                                                  i
Report Number 98-134                           May 14, 1998
                                                              I

             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932, or visit the Inspector
  General, DOD, Home Page at: WWW.DGDIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

CFO                  Chief Financial Officers (Act)
DCAA                 Defense Contract Audit Agency
DFAS                 Defense Finance and Accounting Service
                     Defense Logistics Agency
E?C                  General Ledger Account Code
OMB                  Office of Management and Budget
                              INSPECTOR     GENERAL
                             DEPARTMENT    OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                           May 14, 1998

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE COLUMBUS CENTER

SUBJECT: Audit Report on Payroll Expenses Reported by the Defense Finance and
         Accounting Service Columbus Center (Report No. 98-134)


        We are providing this report for review and comments. This is the third in a
series of reports addressing payroll-related issues. This audit was performed in
response to the Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service did not comment on a draft of this
report; therefore, we are requesting comments on the final report by June 15, 1998.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Charles J. Richardson at (703) 604-9582 (DSN 664-9582),
e-mail crichardson@DODIG. OSD.MIL, or Ms. Dorothy L. Jones at (703) 604-9521
(DSN 664-5921), e-mail djones@DODIG.OSD.MIL. See Appendix D for the report
distribution. The audit team members are listed inside the back cover.



                                        ubidyb
                                         David K. Steehsma
                                  Deputy Assistant Inspector General
                                            for Auditing
                           Office of the Inspector General, DOD

Report No. 98-134                                                                       May 14, 1998
   (project No. 7FW-2010.02)



                          Payroll Expenses Reported by the
                       Defense Finance and Accounting Service
                                  Columbus Center

                                      Executive Summary

Introduction. The audit was performed in compliance with Public Law 101-576, the
‘Chief Financial Officers Act of 1990,” and Public Law 103-356, the “Federal
Financial Management Act of 1994. n Public Law 103-356 requires DOD and other
Government agencies to prepare consolidated financial statements for FY 1996 and the
following years. The Defense Finance and Accounting Service (DFAS) Indianapolis
Center is responsible for preparing the fmncial statements for Department 97’
appropriations, beginning in FY 1996. To meet that requirement, the Deputy Director
for Accounting Operations, DFAS Indianapolis Center, consolidates the financial
information received from offices that provide accounting support to the Defense
organizations and prepares the financial statements for the “Other Defense
Organizations, n a segment of the DOD consolidated financial statements. During
FY 1996, the Defense organizations received $39 billion in appropriations, and their
financial statements showed operating expenses of $40.5 billion. Inspector General,
DOD, Report No. 98-028, “Personal Services and Benefits Expenses in the FY 1996
Statement of Operations and Changes in Net Position of the Other Defense
Organizations, * December 2, 1997, reported that $7.1 billion of the operating expenses
was for payroll. For the FY 1996 financial statements, DFAS Indianapolis Center
records showed that the DFAS Columbus Center reported operating expenses in
Standard General Ledger Account Code 6100, “Operating and Program Expense, ”
totaling $310.4 million for the Defense Contract Audit Agency (DCAA) and
$1.7 billion for the Defense Logistics Agency (DLA). This report is the third in a
series of reports addressing payroll-related issues, including the effect of noncompliant
payroll actions on the FYs 1996 and 1997 financial statements.

Audit Objectives. The overall audit objective was to evaluate management controls
over the presentation of civilian payroll and related expenses on the Other Defense
Organizations’ FY 1996 financial statements. We also reviewed the effect of
noncompliant payroll actions on the FYs 1996 and 1997 financial statements.
Specifically, we reviewed accounting records for payroll and related expenditures to
determine the validity of payroll expenses that the DFAS Columbus Center submitted
to the DFAS Indianapolis Center on behalf of DCAA and DLA. We also assessed the
DFAS Columbus Center’s management control program as it related to the
overall objective.




‘Department 97 appropriations include general funds, as well as revolving funds, trust funds, and some
small special funds, which are specifically allocated to Defense organizations and Military Departments.
Audit Results. The FY 1996 Statement of Operations and Changes in Net Position for
Other Defense Organizations included $1.2 billion of DCAA and DLA payroll
expenses in Note 23 that could not be traced to source records. Also, the DFAS
Columbus Center did not follow the DFAS Indianapolis Center’s guidance for reporting
financial data in the FY 1996 Statement of Operations. As a result, DCAA and DLA
payroll expenses for FY 1996 were not identifiable in the reported operating expenses
and were not auditable to the source records. Also, in the operating expenses that the
DFAS Columbus Center reported to the DFAS Indianapolis Center in Standard General
Ledger Account Code 6100, DCAA payroll expenses were understated by
$56.1 million.

The auditability of the FY 1997 and future operating expenses for DCAA and DLA
will be adversely affected until the DFAS Columbus Center corrects the causes for the
incorrect reporting. Although the corrective actions will not change the data for
FYs 1996 and 1997, they will have an impact on FY 1998 data. See Part I for a
discussion of the audit results and Appendix A for details of our review of the
management control program.

Summary of Recommendations. We recommend that the Director, DFAS Columbus
Center, modify accounting and reporting systems to allow operating expenses to be
reported by Standard General Ledger Account Code on the financial statements, and
establish procedural reviews to ensure that financial information is properly reported
and classified.

Management Comments. Management comments were not received on a draft of this
report. Therefore, we request that the Director, DFAS Columbus Center, provide
comments on this final report by June 15, 1998.




                                           ii
Table of Contents
Executive Summary                                                        i

Part I - Audit Results
      Audit Background
      Audit Objectives
      Payroll Expenses Reported for FY 1996

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                           10
        Management Control Program                                      12
      Appendix B. Summary of Prior Coverage                             13
      Appendix C. OMB Object Classes and Related DOD Standard General
                  Ledger Accounts                                       15
      Appendix D. Report Distribution                                   18
Part I - Audit Results
Audit Background

    Requirements for Financial Statements. Public Law 101-576, the “Chief
    Financial Officers (CFO) Act of 1990,” November 15, 1990, requires
    Executive departments and agencies to prepare financial statements for each of
    their trust funds, revolving funds, and commercial activities. The CFO Act also
    requires the Inspectors General to audit or oversee the audit of all financial
    statements prepared under the CFO Act. The auditors must report on the
    adequacy of internal controls of the reporting entity and on compliance with
    laws and regulations that could have a material effect on the financial
    statements. The CFO Act, as amended by Public Law 103-356, the “Federal
    Financial Management Act of 1994, n October 13, 1994, requires DOD and
    other Government agencies to prepare consolidated fmncial statements for
    FY 1996 and the following years.

    The DOD Consolidated Financial Statements for FY 1996 include financial
    information for a reporting entity entitled “Other Defense Organizations. ” The
    financial statements for Other Defense Organizations include financial
    information for various Defense organizations that received Department 97’
    appropriations. In FY 1996, 35 Defense organizations were appropriated
    $39 billion of Department 97 funds to perform their missions and functions.

    Financial Reports. The Defense Finance and Accounting Service (DFAS)
    Indianapolis Center is responsible for compiling the financial information
    submitted on behalf of Other Defense Organizations. Total operating expenses
    are reported on the Other Defense Organizations Statement of Operations and
    Changes in Net Position (hereafter referred to as the Statement of Operations)
    and by object class in Note 23, Program or Operating Expenses. Object classes
    are defined by the Office of Management and Budget (OMB) and are used to
    report obligations and expenses according to the nature of the services or
    articles procured. Appendix C shows the OMB object classes and the related
    DOD Standard General Ledger accounts for all operating expenses. The
    FY 1996 Statement of Operations prepared by the DFAS Indianapolis Center
    reports that Other Defense Organizations had operating expenses of
    $40.5 billion, of which $7.1 billion could be attributed to the object class
    defined as personal services and benefits.

    Accounting Support. The DFAS Columbus Center provides accounting
    support for the Defense Contract Audit Agency (DCAA), agency
    limitation 4600, and the Defense Logistics Agency (DLA), agency
    limitation 5 100. The support includes maintaining general ledger accounting
    records and pertinent documents. DCAA and DLA maintain their respective
    payroll time and attendance source documents. The DFAS Columbus Center is
    responsible for preparing monthly trial balances and submitting the accounting
    information to the DFAS Indianapolis Center for fmncial statement reporting.

    ‘Department 97 appropriations include general funds, as well as revolving funds, trust funds,
    and some small special funds, which are specifically allocated to Defense organizations and
    Military Departments.


                                               2
     For the FY 1996 financial statements, DFAS Indianapolis Center records
     showed that the DFAS Columbus Center reported, in Standard General Ledger
     Account Code (GLAC) 6100, $310.4 million of total operating expenses for
     DCAA agency limitation 4600 and $1.7 billion of total operating expenses for
     DLA agency limitation 5100.

     The DFAS Indianapolis Center included the reported total operating expenses
     for both agencies on the FY 1996 Statement of Onerations in the obiect class
     defined as”personal services and benefits.     *




Audit Objectives

     The overall audit objective was to evaluate management controls over the
     presentation of civilian payroll and related expenditures on the FY 1996
     Financial Statements for Other Defense Organizations. We also reviewed
     effect of noncompliant payroll actions on the financial statements for FYs Ihgeg6
     and 1997. Specifically, we reviewed accounting records for payroll and related
     expenditures to determine the validity of the payroll expenses that the DFAS
     Columbus Center submitted to the DFAS Indianapolis Center on behalf of
     DCAA and DLA. We also assessed the DFAS Columbus Center’s management
     control program as it related to the overall objective. This report is the third in
     a series of reports addressing payroll-related issues. See Appendix A for a
     discussion of the audit scope and methodology and the results of our review of
     the management control program. See Appendix B for a summary of prior
     coverage related to the audit objectives.




                                         3
            Payroll Expenses Reported for FY 1996
            The FY 1996 Statement of Operations for Other Defense Organizations
            included $1.2 billion of DCAA and DLA payroll expenses in Note 23
            that could not be traced to source records. Also, the DFAS Columbus
            Center did not follow the DFAS Indianapolis Center’s guidance for
            reporting financial data in the FY 1996 Statement of Operations. The
            expenses could not be traced to source records because the accounting
            system used by the DFAS Columbus Center did not retain detailed
            payroll expense data after the expenses were accumulated in summary
            form. Lacking access to the detailed expense data, the DFAS Columbus
            Center could not follow the FY 1996 guidance for preparing the
            financial statements for Other Defense Organizations. As a result,
            DCAA and DLA payroll expenses for FY 1996 were not identifiable in
            the reported operating expenses and were not auditable to the source
            records. Also, the DFAS Columbus Center, when reporting the DCAA
            operating expenses in GLAC 6100 to the DFAS Indianapolis Center,
            understated DCAA payroll expenses by $56.1 million.



Payroll and Related Expenses for FY 1996

    Although the DFAS Columbus Center reported only the total operating expenses
    for DCAA and DLA to the DFAS Indianapolis Center, the agencies’ trial
    balances reported payroll expenses separately from all other operating expenses,
    as shown in the following table.

                          Payroll Expenses Reported in Note 23

                      Payroll Expenses        Other Expenses        Trial Balances
        Agency            (millions)             (millions)           (millions1

        DCAA              $ 259.4                  $56.1               $   315.5
        DLA                 930.1                  A 00                    930.1
           Totals         $1,189.5                 $56.1               $1,245.6            i

    However, no audit trail existed to trace the validity of the summarized payroll
    expenses from the trial balances to the source documents.



Requirement for Audit Trails

     DoD Financial Management Regulation. DOD Regulation 7000.14-R, the
     “DOD Financial Management Regulation,” states that DOD accounting systems
     must have audit trails. That is, the accounting system must allow a financial
     transaction to be traced from its source to the accounting records to the financial


                                          4
                                              Payroll Expenses Reported for FY 1996



     statements, and from the financial statements back to the accounting records and
     back to the source records. In Key Accounting Requirement No. 8, “Audit
     Trails,” DOD Regulation 7000.14-R states that all transactions, including those
     that are computer-generated and computer-processed, must be traceable to
     individual source records. Source records that are necessary for audit trails
     include transaction type, record or account involved, amount, processing
     references, and identification of the preparer and approver of the transaction,

    Audit Trail at DFAS Columbus Center. DFAS Columbus Center’s reporting
    and accounting systems did not have a complete audit trail for FY 1996 payroll
    expenses. In tracing the $1.2 billion in payroll expenses from the financial
    statements, the audit trail ended at each agency’s trial balance. From the total
    payroll expenses reported to the DFAS Indianapolis Center, the DFAS
    Columbus Center was not able to identify individual accounting entries for
    DCAA or DLA. As a result, the payroll expenses were not auditable.



Reporting Financial Data

     The DFAS Columbus Center did not follow the DFAS Indianapolis Center’s
     guidance for reporting financial data to the DFAS Indianapolis Center for the
     FY 1996 Statement of Operations.

    Reporting Guidance. On June 25, 1995, the DFAS Indianapolis Center issued
    guidance to accounting offices, including the DFAS Columbus Center, for
    preparing the financial statements for Other Defense Organizations. The
    guidance directed Defense agencies and other submitters of Department 97
    reports to make the transition during FY 1996 to full trial balance reporting,
    using the DOD Standard General Ledger chart of accounts. Full trial balance
    reporting includes DOD Standard General Ledger summary accounts and
    sunnorting accounts for each annropriation. Payroll expenses are accumulated
                                    _a


    in*f%e GEACs:

            o GLAC 6111, Personnel Compensation-Civilian;

            o GLAC 6112, Personnel Compensation-Military;

            o GLAC 6113, Personnel Benefits-Civilian;

            o GLAC 6114, Personnel Benefits-Military; and

            o GLAC 6115, Benefits for Former Personnel.

     By submitting a full trial balance, the subsidiary accounts for operating
     expenses, such as payroll expenses, can be easily identified for financial
     statement reporting.

     DFAS Columbus Center Reporting. The DFAS Columbus Center reported
     total operating expenses in GLAC 6100, “Operating/Program Expense, ” a
     summary account for all operational and program costs incurred during


                                          5
Payroll Expenses Reported for F’Y 1996



      FY 1996, rather than by individual GLACs. When asked to provide total
      operating expenses by subsidiary accounts, DFAS Columbus Center employees
      stated that they could not do so because the accounting system did not retain
      detailed expense data for FY 1996 after the expenses were summarized for
      reporting purposes. As a result, the DCAA and DLA payroll expenses included
      in the FY 1996 Statement of Operations were not identifiable.

      Reporting DCAA Civilian Personnel Benefits. DCAA payroll expenses for
      GLAC 6100 were understated by $56.1 million. The DFAS Columbus Center
      excluded DCAA civilian personnel benefits from GLAC 6100 when reporting
      operating expenses to the DFAS Indianapolis Center. The DFAS Columbus
      Center also incorrectly reported DCAA civilian personnel benefits in
      GLAC 6400, which represents expenses paid through the Military Retirement
      Trust Fund and the DOD Education Benefits Trust Fund (see Appendix C). In
      addition to using the incorrect GLAC, the DFAS Columbus Center reported
      only $56.1 million, not the full amount of $57 million.



System Limitations and Controls

      The DFAS Columbus Center reported expenses inaccurately because of
      limitations of the financial system and weaknesses in management controls over
      financial data reporting. Financial system limitations prevented the DFAS
      Columbus Center from reporting operating expenses by subsidiary accounts.
      Data for the subsidiary accounts were unavailable because the financial system
      automatically purged detailed operating expense data when the FY 1996 expense
      accounts closed. When the accounts were closed, the financial system
      summarized the detailed operating expense data in the cumulative results of
      operations for each agency. Therefore, to report operating expenses, DFAS
      Columbus Center personnel used budgetary data because they could support the
      expenses recorded in the budgetary accounts. However, the budgetary data
      could not be traced to operating expenses by GLAC or object class. The DFAS
      Columbus Center did not have review procedures that were adequate to ensure
      that financial data were reported to the DFAS Indianapolis Center accurately
      and in accordance with instructions.



Recommendations for Corrective Action

      We recommend that the Director, Defense Finance and Accounting Service
      Columbus Center:

              1. Revise accounting and reporting systems to comply with the Defense
      Finance and Accounting Service Indianapolis Center’s instructions to report
      operating expenses in individual Standard General Ledger Account Codes




                                         6
                                           Payroll Expenses Reported for FY 1996



    instead of in the summary Standard General Ledger Account Code (6100) for
    the FY 1998 Financial Statements of the Defense Contract Audit Agency and
    the Defense Logistics Agency.

            2. Establish procedural reviews to ensure that expenses and other
    financial information are properly reported and classified in accordance with
    reporting instructions issued by the Defense Finance and Accounting Service
    Indianapolis Center.



Management Comments Required

    The Director, DFAS Columbus Center, did not comment on the draft of this
    report. Therefore, we request that the Director, DFAS Columbus Center,
    provide comments on this final report.
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    We reviewed operating expenses of $366.5 million in GLACs 6100 and 6400
    for agency limitation 4600 (DCAA) and $1.7 billion in GLAC 6100 for agency
    limitation 5100 (DLA). Both agency limitations were included in the Statement
    of Operations in the DOD Consolidated Financial Statements for FY 1996. We
    reviewed and analyzed the DC&4 and DLA year-end trial balances submitted
    by the DFAS Columbus Center, the accounting office, to the DFAS
    Indianapolis Center on behalf of DCAA and DLA. We attempted to identify
    the payroll expenses within the reported operating expenses. We also attempted
    to calculate the FY 1996 payroll expenses for DCAA and DLA using
    DD Form 592, “Payroll for Personal Services Certification and Summary. n

    Use of Computer-Processed Data. We used the FY 1996 computer-processed
    data that the DFAS Indianapolis Center used to prepare the FY 1996 Statement
    of Operations for Other Defense Organizations. In addition, we used
    computer-processed general ledger data and financial reports generated by the
    DFAS Columbus Center for accounting and management purposes. We did not
    validate the reliability of any of the accounting and management systems
    because we limited our use of the data to testing management controls,
    performing analytical reviews, and obtaining an understanding of the procedures
    that the DFAS Indianapolis and Columbus Centers used to compile and report
    operating expenses. Not validating the reliability of the data did not affect the
    results of our audit.

    Sampling Method. In FY 1996, 35 Defense organizations spent
    Department 97 funds :or personal services and benefits expenses through
    87 agency limitations. Using a sampling method known as probability
    proportional to size methodology, we statistically selected a sample of
    15 agency limitations. Agency limitations 4600 (DCAA) and 5100 (DLA) were
    the only selected samples that received accounting support from the DFAS
    Columbus Center. Because of inadequate audit trails from the financial
    statements to the accounting and source records at supporting accounting
    organizations, we curtailed our audit work after five agency limitations. We
    will issue a report on the DFAS Cleveland Center, which provided accounting
    support for 2 of the 15 selected agency limitations. We will not issue an overall
    audit report addressing FY 1996 payroll expenses for Other Defense
    Organizations.



    *OMB Circular No. A-34, “Instructions on Budget Execution,” December 1995, states that an
    “agency limitation” is for fund control purposes and defines the term as “any administrative
    division or subdivision of funds made by agency officials that restricts the use of Federal
    Government funds. ”


                                             10
                                                        Appendix A. Audit Process



The following table shows the extent of the audit trails that existed for the
payroll expenses of the five selected agency limitations from the financial
statements to the accounting records, and from the accounting records back to
the source records. An “X” indicates the presence of supporting accounting
records.

               Extent of Audit Trails for Payroll Financial Data
                        Analyzed by Agency Limitation


   Accounting Office                  DFAS Columbus Center    DFAS Cleveland Center




   Accounting records




   (payroll summaries)


   BRAC            Base Realignment and Closure
   OSD             Office of the Secretary of Defense
   WHS             Washington Headquarters Services


Use of Technical Assistance. The Technical Director and an Operations
Research Analyst of the Quantitative Methods Division, Office of the Assistant
Inspector General for Auditing, provided technical assistance in selecting an
audit sample.

Audit Type, Dates, and Standards. We performed this financial-related audit
from April 1997 through January 1998 in accordance with auditing standards
issued by the Comptroller General of the United States, as implemented by the
Inspector General, DOD. We included tests of management controls that we
considered necessary.



                                       11
Appendix A. Audit Process



      Contacts During the Audit. We visited or contacted individuals and
      organizations within DOD. Further details are available on request.



Management Control Program

      DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
      requires DOD organizations to implement a comprehensive system of
      management controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of those controls.

      Scope of Review of the Management Control Program. We assessed the
      adequacy of the DFAS Columbus Center’s management controls over payroll
      expenses reported to the DFAS Indianapolis Center for inclusion in the FY 1996
      Financial Statements for Other Defense Organizations. To accomplish this, we
      relied on Inspector General, DOD, Report No. 97-073, “Reliability of the
      FY 1995 Financial Statements for the Defense Logistics Agency General
      Fund,” January 15, 1997, and Inspector General, DOD, Report No. 97-024,
      “General Fund Trial Balance of the Defense Logistics Agency at September 30,
      1995,” November 15, 1996. We reviewed management’s self-evaluation of
      controls over expense reporting.

      Adequacy of Management Controls. We identified a material management
      control weakness as defined by DOD Directive 5010.38. The DFAS Columbus
      Center’s management controls over the reporting of operating expenses were not
      adequate to ensure that all expenses were properly and accurately classified and
      reported and were auditable. The recommendations in this report, if
      implemented, will improve the accuracy of operating expenses reported to the
      DFAS Indianapolis Center for inclusion in the Statement of Operations and
      Changes in Net Position for Other Defense Organizations in future years. A
      copy of this report will be provided to the senior DFAS official responsible for
      management controls.

      Adequacy of Management’s Self-Evaluation. The DFAS Columbus Center
      identified the facial   statements that DOD organizations are required to
      prepare and submit to OMB under the CFO Act as an assessable unit and, in our      ,
      opinion, correctly identified the associated risk as high. However,
      management’s self-evaluation was not adequate to ensure that operating
      expenses were properly and accurately classified and reported and were
      auditable. Also, the accounting system did not provide audit trails, as
      recommended in prior reports. Management is conducting an evaluation to
      determine whether the current accounting system will be updated or replaced.




                                         12
Appendix B. Summary of Prior Coverage

   The Inspector General, DOD, has published numerous audit reports in response
   to the requirements of the CFO Act. The following six reports are related to
   this audit.

   Inspector General, DoD, Report No. 98058, “Payroll Expenses Reported in
   FY 1996 for the Offke of the Secretary of Defense,” February 2,
   1998. This is the second in a series of reports addressing payroll-related issues,
   including the effect of noncompliant payroll actions on the FYs 1996 and 1997
   financial statements. The report states that the FY 1996 Statement of
   Operations and Changes in Net Position for Other Defense Organizations
   included $145.4 million of payroll expenses for the Office of the Secretary of
   Defense; however, this amount could not be traced to source records. As a
   result, the operating expense portion of the Statement of Operations and
   Changes in Net Position for Other Defense Organizations could not be relied on
   to accurately present payroll expenses for FY 1996. A change in payroll
   systems corrected the problem for FY 1997.

   Inspector General, DoD, Report No. 98-028, “Personal Services and
   Benefits Expenses in the FY 1996 Statement of Operations and Changes in
   Net Position of the ‘Other Defense Organizations,“’ December 2, 1997.
   This is the first in a series of reports addressing payroll-related issues, including
   the effect of noncompliant payroll actions on the FYs 1996 and 1997 financial
   statements. The report states that in the FY 1996 Statement of Operations and
   Changes in Net Position for Other Defense Organizations payroll expenses were
   overstated by $8 billion. As a result, the operating expense portion of the
   FY 1996 Statement of Operations and Changes in Net Position for Other
   Defense Organizations could not be relied on to accurately present payroll
   expenses. We recommended issuing additional instructions to require the
   individual reporting of operating expenses. Management concurred and issued
   clarifying instructions in August 1997.

   Inspector General, DOD, Report No. 97-201, “Navy and Marine Corps
   Reserve Financial Reports on the National Guard and Reserve Equipment
   Appropriation,” July 30,1997. The report states that the “Report(s) on
   Budget Execution, n DD Form 1176, for the Navy and Marine Corps Reserve
   National Guard and Reserve Equipment Appropriation were not fully supported
   with source documentation. The Report(s) on Budget Execution were not fully
   supported because the DFAS Cleveland Center did not maintain adequate
   documentation or source records, as required by Key Accounting Requirement
   No. 8, “Audit Trails.” As a result, the Report(s) on Budget Execution could
   not be verified, and the FY 1996 trial balances for the Navy and Marine Corps
   Reserves may be unreliable. Further, if the DFAS Cleveland Center does not
   reconcile the FY 1996 financial reports with source documents, the FY 1997
   financial statements may also be unreliable. The DFAS Cleveland Center
   concurred with all recommendations.




                                         13
Appendix B. Summary of Prior Coverage


      Inspector General, DOD, Report No. 97-155, “Internal Controls and
      Compliance With Laws and Regulations for the FY 1996 Financial
      Statements of the ‘Other Defense Organizations’ Receiving Department 97
      Appropriations,” June 11, 1997. The report states that the consolidated
      principal statements for Other Defense Organizations did not accurately and
      reliably represent the financial operations of the Defense organizations and
      funds that received Department 97 General Fund appropriations. Unless
      improvements in accounting systems and management controls are made, the
      FYs 1997 and 1998 Financial Statements for Other Defense Organizations will
      not be reliable. The report also states that the DFAS Indianapolis Center and
      the accounting offices supporting the Defense organizations and funds that
      receive Department 97 appropriations were unable to fully comply with
      applicable laws and regulations. As a result, the Defense organizations
      receiving Department 97 general funds did not fully comply with the CFO Act
      and the Federal Managers’ Financial Integrity Act. The report recommended
      that the Director, DFAS Indianapolis Center, maintain the records needed for
      audit trails of all adjustment transactions; reconcile the current-year
      Department 97 expenditure data for the Fund Balance With Treasury account
      with Department of the Treasury data; and document the review process used
      and the decision made regarding the auditors’ recommended adjustments to the
      Principal Statements, including the footnotes. The Director, DFAS Indianapolis
      Center, concurred with the recommendations.

      Inspector General, DoD, Report No. 97-073, “Reliability of the FY 1995
      Financial Statements for the Defense Logistics Agency General Fund,”
      January 15, 1997. The report states that the DFAS Colwnbus Center did not
      prepare reliable FY 1995 financial statements for three DLA General Fund
      appropriations. The report recommended that the DFAS Columbus Center
      perform quality control reviews of the financial statements. DFAS Columbus
      Center concurred with the recommendation and stated that the completed
      financial statements are randomly selected for detailed reviews.

      Inspector General, DOD, Report No. 97-024, “General Fund Trial Balance
      of the Defense Logistics Agency at September 30,1995,” November 15,
      1996. The report states that the DFAS Columbus Center did not reconcile the
      DLA general ledger accounts before preparing and certifying the FY 1995 DLA
      trial balance. The report also states that the DFAS Columbus Center’s
      accounting system did not readily permit identification of imbalances. In
      addition, the DFAS Columbus Center’s accounting system did not provide an
      adequate audit trail to identify the causes and correct the imbalances. The
      report recommended that the DFAS Columbus Center accelerate the schedule of
      implementing the accounting system changes needed to readily identify and
      correct account imbalances and perform needed reconciliations to ensure that the
      DLA FY 1996 Financial Statements would be more reliable. The DFAS
      Columbus Center concurred with the recommendations, stating that software
      would be installed to implement the DOD Standard General Ledger and allow
      segregation of proprietary accounts. However, the DFAS Columbus Center has
      not implemented the changes needed in the accounting system.




                                         14
Appendix C. OMB Object Classes and Related
DOD Standard General Ledger Accounts

Obiect Class                General Ledger Account      Account Definition

Personal Services and       6 111-Personnel             Represents the gross
Benefits                    Compensation-Civilian       compensation for personal
                                                        services rendered by
                                                        Federal civilian employees
                                                        and non-Federal
                                                        employees.

                            6 112-Personnel             Represents the earned
                            Compensation-Military       basic, incentive, and
                                                        special pays for military
                                                        personnel.

                            6113-Personnel Benefits-    Represents the benefits paid
                            Civilian                    directly to DOD civilian
                                                        personnel and payments to
                                                        other funds for the benefit
                                                        of the employees.

                            6114-Personnel Benefits-    Represents the benefits paid
                            Military                    directly to military
                                                        personnel or to other funds
                                                        for military personnel.

                            6 11!&Benefits for Former   Represents benefits due to
                            Personnel                   former personnel or their
                                                        survivors.

Travel and Transportation   6 116-Travel and            Represents the expense of
                            Transportation of Persons   transporting employees and
                                                        others, including their
                                                        per diem allowances, while
                                                        in an authorized travel
                                                        status.

                            6117-Transportation of      Represents the expense of
                            Things                      transporting things and the
                                                        care of such things while in
                                                        the process of being
                                                        transported.




                                        15
Appendix C. OMB Object Clams and Related DOD
Standard General Ledger Accounts



Obiect Class                General Ledger Account       Account Definition

Rents, Communications,      61 l&Rents,                  Represents the expense
and Utilities               Communications, and          incurred for rents,
                            Utilities                    communications, and
                                                         utilities purchased from
                                                         commercial or
                                                         U .S . Government sources.
Printing and Reproduction   6 119-Printing and           Represents the expense
                            Reproduction                 incurred for printing and
                                                         reproduction and the
                                                         related composition and
                                                         binding operations.

Contractual Services        6 120-Other Services         Represents the expense
                                                         incurred for services not
                                                         otherwise classified.

Supplies and Materials      6121-Supplies and            Represents the expense
                            Materials                    incurred for supplies and
                                                         materials, including
                                                         ammunition. Includes all
                                                         supplies consumed or
                                                         utilized that do not meet
                                                         the capitalization criteria.

Equipment Not Capitalized   6122~Equipment Not           Represents the acquisition
                            Capitalized                  costs of equipment that do
                                                         not meet capitalization
                                                         requirements.

Grants, Subsidies, and      6 123-Grants, Subsidies,     Represents the value of
Contributions               and Contributions            grants, subsidies, and
                                                         contributions made to
                                                         further or enhance the
                                                         interest of national defense.
                                                                                         i
Insurance Claims and        6 124~Insurance Claims and   Represents payments to
Indemnities                 Indemnities                  veterans and their survivors
                                                         for death or disability,
                                                         claims and judgments
                                                         arising from court
                                                         decisions, contracts, and
                                                         military operations.




                                         16
                Appendix C. OMB Object Classes and Related DOD
                              Standard General Ledger Accounts



Obiect Class   General Ledger Account   Account Definition

Other          6130-Annual Leave        Represents the expense for
                                        annual leave earned by
                                        military personnel and
                                        civilian employees during
                                        the accounting period.

               6190-Contra Bad Debt     Represents bad debt
               Expense-Incurred for     expense.
               Others

               6199-Adjustment to       Represents the amount of
               Subsidy Expense          adjustment to subsidy
                                        expense in the program
                                        fund.

               6400-Benefit Program     Represents amounts paid by
               Expense                  the Military Retirement
                                        Trust Fund and the DOD
                                        Education Benefits Trust
                                        Fund.




                           17
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
   Director for Accounting Policy
   Director, Administration and Management
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange
Director, Washington Headquarters Services


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Superintendent, Naval Postgraduate School


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations                         ’

Director, De   knse Contract Audit Agency
Director, De   knse Finance and Accounting Service
   Director,   Defense Finance and Accounting Service   Cleveland Center
   Director,   Defense Finance and Accounting Service   Columbus Center
   Director,   Defense Finance and Accounting Service   Denver Center
   Director,   defense Finance and Accounting Service   Indianapolis Center
Director, De   &se Logistics Agency
Director, Na   ional Security Agency
   Inspector   General, National Security Agency
Inspector Ge   reral, Defense Intelligence Agency




                                           18
                                                    Appendix D. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Inspector General, Department of Education

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
     Senate Committee on Appropriations
     Senate Subcommittee on Defense, Committee on Appropriations
     Senate Committee on Armed Services
     Senate Committee on Governmental Affairs
     House Committee on Appropriations
     House Subcommittee on National Security, Committee on Appropriations
     House Committee on Government Reform and Oversight
     House Subcommittee on Government Management, Information, and Technology,
        Committee on Government Reform and Oversight
 -   House Subcommittee on National Security, International Affairs, and Criminal
       Justice, Committee on Government Reform and Oversight
     House Committee on National Security




                                                                                      i




                                           19
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Sandra L. Fissel
Joe E. Richardson
Dorothy L. Jones
Linh Truong
Deborah J. Curry
Susanne B. Allen
